<html>
<title> - TRACKING SEX OFFENDERS IN INDIAN COUNTRY: TRIAL IMPLEMENTATION OF THE ADAM WALSH ACT</title>
<body><pre>[Senate Hearing 110-557]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-557
 
 TRACKING SEX OFFENDERS IN INDIAN COUNTRY: TRIAL IMPLEMENTATION OF THE 
                             ADAM WALSH ACT

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 17, 2008

                               __________

         Printed for the use of the Committee on Indian Affairs


                     U.S. GOVERNMENT PRINTING OFFICE
44-800 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                      0COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 LISA MURKOWSKI, Alaska, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            TOM COBURN, M.D., Oklahoma
DANIEL K. AKAKA, Hawaii              JOHN BARRASSO, Wyoming
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARIA CANTWELL, Washington           GORDON H. SMITH, Oregon
CLAIRE McCASKILL, Missouri           RICHARD BURR, North Carolina
JON TESTER, Montana
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 17, 2008....................................     1
Statement of Senator Dorgan......................................     1

                               Witnesses

Gregory, William, Tribal Prosecutor, Little Traverse Bay Bands of 
  Odawa Indians..................................................    21
    Prepared statement...........................................    23
Johnson, Jacqueline, Executive Director, National Congress of 
  American Indians with attachment...............................    25
    Prepared statement...........................................    27
Lopez, Hon. Isidro B., Vice Chairman, Tohono O'odham Nation......     8
    Prepared statement...........................................    10
Moore, Hon. Robert, Tribal Councilman, Rosebud Sioux Tribe.......    13
    Prepared statement with attachments..........................    15
Suppah, Sr., Hon. Ronald, Chairman, Confederated Tribes of The 
  Warm Springs Reservation.......................................     4
    Prepared statement...........................................     5

                                Appendix

Pearson, Hon. Myra, Chairwoman, Spirit Lake Sioux Tribe, prepared 
  statement......................................................    45
Spirit Lake Sioux Tribe, prepared statement......................    46


                   TRACKING SEX OFFENDERS IN INDIAN 
          COUNTRY: TRIAL IMPLEMENTATION OF THE ADAM WALSH ACT

                              ----------                              


                        THURSDAY, JULY 17, 2008


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
room 562, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. We will call the hearing to order. My 
apologies for being delayed. I have been at an Energy Committee 
hearing this morning on the subject of gas prices and oil 
prices. It took longer than I expected.
    This is a hearing of the Indian Affairs Committee. Today, 
the Committee will hold a hearing to examine the implementation 
of the Adam Walsh Child Protection and Safety Act of 2006. I 
was a cosponsor and worked in constructing that Act. The Act 
sought to fill the gaps in prior sex offender registration 
requirements.
    The failures in tracking sex offenders hit particularly 
hard in North Dakota, but it hits hard all across this Country 
when we see the unbelievable stories about the victims of sex 
offenders. This is a photograph of a young woman named Dru 
Sjodin. She was abducted in Grand Forks, North Dakota on 
November 22, 2003. Dru Sjodin's family and the memory of Dru 
Sjodin has inspired at least one significant portion of the 
Adam Walsh Child Protection and Safety Act.
    Dru Sjodin was murdered by a man named Alphonso Rodriguez, 
Jr. He was a level three sex offender. He was a sexual predator 
who had been in prison for 23 years, and prior to being 
released from prison, was judged to be a high risk for another 
violent offense, by psychiatrists and others who evaluated him.
    Despite that, he was released from prison without 
notification of the local State's attorney, without 
notification of local law enforcement authorities. He moved to 
a place near a State border and those who might have been 
wishing to track whether sexual offenders were living near them 
by accessing a State offender list would not have seen that 
this particular man was living just a few miles on the other 
side of a State border. They would not have seen his name. He 
was at a shopping center in Grand Forks, North Dakota. He 
kidnapped, raped, and murdered Dru Sjodin. He has since been 
tried and found guilty and been given the death penalty.
    But the question that is raised in cases like this is how 
does it happen that we have a sexual predator registry of 
violent sexual predators that is not complete, that does not 
give us information about who the sexual predators are and 
where they are living? The other important question is, why do 
we not have a system that identifies not only the sexual 
predators who are at high risk, but especially those who are at 
high risk of re-offending when they are to be let out of 
incarceration so that the notification can be made to victims, 
victims' families, and to the local State's attorneys in the 
event that some substantial additional monitoring would be made 
of those high-risk sexual offenders, or perhaps some additional 
incarceration when necessary?
    The Adam Walsh Act I recognize is not necessarily complete 
in every respect, but it is an Act I think that moves us 
forward in trying to protect people against violent sexual 
predators and sex offenders. For the first time in dealing with 
these laws, the law brought Indian tribes to the table. For 
example, under the guidelines of the Act, tribal court 
convictions will be given full faith and credit with respect to 
notification under this Act. In addition, sex offenders who 
live or work on Indian lands must comply with the registration 
requirements. This will help reject any notion that Indian 
lands are safe haven for criminals.
    Those who follow this Committee know that I have held 
hearings in which we have had testimony that one in three 
Indian women during their lifetime will be raped or be the 
victim of a violent sexual offense. I think it is very 
important that we make certain that Indian lands cannot and 
will not and should not be safe havens for criminals who are 
engaged in these kinds of offenses.
    Because the law deals with sex offenders, it has a 
significant impact on tribes and their lands. As this 
Committee's previous hearings have shown, Indian Country is 
suffering an epidemic of sexual and domestic violence. Victims 
of abuse on reservations in some cases have had to wait hours 
and in some cases weeks for a response by law enforcement 
because tribal police are understaffed--another subject which 
this Committee is dealing with.
    Far too many crimes go unprosecuted which leads to under-
reporting of the very problem. It is vital, it seems to me, 
that governments and victims in Indian Country be informed 
regarding the whereabouts of sex offenders.
    Despite the significant impact of the Adam Walsh Act on 
Indian tribes, it is the case there was not sufficient 
consultation with tribes. This rush to move without adequate 
consultation has an impact on tribal governments. They should 
have been consulted, but under the Act tribal governments were 
given until July 27, 2007 to adopt a tribal resolution to carry 
out the obligations of the Act. If a tribe did not make the 
decision by July 27, then the responsibilities will be turned 
over to State governments.
    As that date approached, no one in the Justice Department 
could explain what obligations a tribe would face. Indian 
tribes were left with a choice: choose to comply with the 
unknown requirements, or act to cede your sovereignty. I, along 
with Vice Chairwoman Murkowski and Senator Biden, introduced 
legislation that would have permitted additional time to answer 
questions that are now raised by the implementation of the Act.
    A similar bill was passed in the House last July, but 
blocked when the bill was referred to the Senate. As a result, 
tribes were forced to make uninformed decisions to comply with 
the Act or to face the consequences. One hundred ninety-eight 
tribes chose to exercise their authority as governments and 
maintain their own sex offender registry. These 198 tribal 
governments now have one year to reach compliance. If the 
Attorney General determines that a tribe has not complied, then 
the tribe's authority will be delegated to the State.
    However, tribes and others have raised a number of 
questions regarding compliance. For example, can a tribe 
require a non-Indian sex offender to submit information to the 
tribal registry? Is there tribal notification or an appeal 
process to the Attorney General's decision of noncompliance? Is 
there a transition process from tribal authority to State 
authority?
    There are many other questions our witnesses will point out 
and discuss today, but my point is the last thing Indian 
Country justice needs is more questions and confusion itself. 
Our law enforcement hearings have shown that this division in 
the criminal justice system is a major cause of violent crime 
problems in Indian Country. This describes the division of 
different jurisdictions. It is a patchwork of difficulty and 
complexity that frankly is just not working.
    The Adam Walsh Act adds yet more questions and more layers 
of confusion. It seems to me that we need to answer those 
questions. I have asked the Department of Justice to come. They 
indicated that they would submit a statement and answer follow-
up questions. I am disappointed that they are not here in 
person. I understand it has something to do with not being able 
to get a statement through the Office of Management and Budget, 
which apparently runs the entire government these days.
    Look, the issue is this: The Adam Walsh Act exists. It 
exists because I and others believe it is important that it 
exist. It ought not be the case that anywhere in this Country a 
violent sexual predator should be able to live and not be 
identified or registered or a part of the monitoring that 
exists with governments, be that tribal government, State 
government, or any level of government.
    The question before this hearing is not how do we find a 
way to allow reservations to avoid the responsibility. That is 
not acceptable, nor do I think our tribes are asking for that 
circumstance. I think the question is how do we make sure that 
the tribal governments are able to comply in a thoughtful way 
so that we have a seamless capability of identifying and 
monitoring sexual predators across this Country.
    So that represents the purpose of this hearing. We have 
five witnesses today: The Honorable Ronald Suppah, who is the 
Chairman of the Confederated Tribes of Warm Springs in Warm 
Springs, Oregon. Mr. Suppah, thank you for being with us.
    We have Isidro Lopez, Vice Chairman of the Tohono O'odham 
Nation in Sells, Arizona; the Honorable Robert Moore, the 
Tribal Councilman at the Rosebud Sioux Tribe in Mission, South 
Dakota; Mr. William Gregory, Tribal Prosecutor, Little Traverse 
Bay Bands of Odawa Indians in Harbor Springs, Michigan; and Ms. 
Jacqueline Johnson, Executive Director of the National Congress 
of American Indians.
    I would ask that each of the witnesses summarize their 
testimony, and we will include the full testimony as a part of 
the permanent record.
    Let's begin with Mr. Ronald Suppah, Chairman of the 
Confederated Tribes of Warm Springs, Oregon. Mr. Suppah, you 
may proceed.

        STATEMENT OF HON. RONALD SUPPAH, SR., CHAIRMAN, 
            CONFEDERATED TRIBES OF THE WARM SPRINGS 
                          RESERVATION

    Mr. Suppah. Good morning, Mr. Chairman and members of the 
Committee. I am Ron Suppah, Chairman of the Confederated Tribes 
of the Warm Springs Reservation of Oregon. I appreciate the 
opportunity to testify today on the Warm Springs experience in 
trying to comply with the Adam Walsh Act.
    Warm Springs was surprised and upset, as was most of Indian 
Country, to learn that Congress has jeopardized our sovereignty 
by subjecting our government to the mandates of the Adam Walsh 
Act. Faced with the option of trying to comply or losing 
jurisdiction, we have chosen to comply, even though we have 
very little experience in any sort of registry for sex 
offenders.
    Since hearing about the Act, we have easily had to spend 
more than $10,000 of our own scarce resources to work towards 
compliance. We have learned all we can about the Act, submitted 
comments on the Act guidelines, attended consultation meetings 
with the Department of Justice, started attending coordination 
meetings with the State, and last September applied for a DOJ 
grant to help implement the Act.
    At the end of April this year, seven months after 
submitting our grant application, the DOJ informed us we were 
being awarded an Adam Walsh implementation grant of $300,000, 
the amount we requested. But in mid-May, DOJ told us we needed 
to submit more budget information before we could start drawing 
on the grant funds. We submitted more detailed materials, but 
in mid-June, DOJ again informed us they needed still more 
budget information.
    We are developing the additional information, but cannot 
start spending the grant until DOJ is satisfied. Meanwhile, 
time is passing before we can start ramping up towards 
compliance, which must be demonstrated to the DOJ's 
satisfaction by the end of April next year. This is just nine 
months away.
    At present, Warm Springs has almost no experience in 
operating a sex offender registry. Our parole and probation 
office keeps track of Indian sex offenders, but only as part of 
the general listing of those Indians convicted of criminal 
offenses in our tribal court. With just nine months to 
demonstrate compliance, we have a lot to do. We must hire and 
train a registrar and a police officer to operate the registry 
and carry out its requirements.
    We must acquire photo and fingerprint computer equipment, 
upgrade our computers and our links to the State, county and 
Federal systems, and learn the information sharing protocols. 
We need to revise our tribal code to comply with Adam Walsh and 
to train our tribal court about the Act.
    In doing so, we must make sure all these activities comply 
with the Adam Walsh guidelines which DOJ just issued at the 
start of this month. Most of this is put on hold until we can 
get our budget squared away with DOJ, which we hope will be 
fairly soon.
    If we cannot meet the April 27, 2009 compliance deadline, 
we will have to ask the Attorney General for a one-year 
extension provided under the Act. We hope we won't have to, but 
we have a lot to do and time is running out.
    In closing, I want to mention three additional concerns. 
One is future funding. Compliance is expensive, and if there is 
no future Federal funding, tribes will have to take it from 
other needed programs or face losing our jurisdiction. This is 
an unfair choice. Second, standards must be set for the 
Attorney General's authority to revoke tribal jurisdiction. And 
third, Federal prisons should do registrations. If tribes have 
to do registrations, so should they.
    That concludes my statement. I thank you.
    [The prepared statement of Mr. Suppah follows:

 Prepared Statement of Hon. Ronald Suppah, Sr., Chairman, Confederated 
                 Tribes of The Warm Springs Reservation

    Mr. Chairman, I am Ron Suppah, Chairman of the Tribal Council of 
the Confederated Tribes of the Warm Springs Reservation of Oregon. It 
is my pleasure to be here today to present testimony regarding the 
implementation of the Adam Walsh Act (Public Law 109-248) by tribal 
governments, and in particular by my Tribe, the Confederated Tribes of 
Warm Springs. My comments include a discussion of the experiences of my 
Tribe as we work to fulfill the Act and a discussion of the broader 
concerns faced by tribal governments on the general application and 
implementation of the Act.
    Our testimony will inform the Committee how the unanticipated Adam 
Walsh Act threatens our sovereignty and has challenged our existing 
Tribal capacity and infrastructure, how we plan to address those 
matters, and how the Department of Justice is, on the one hand, 
providing funding for our compliance efforts while, on the other, 
frustrating our efforts to comply with the implementation timelines 
imposed by the Act. We will also address a number of the broader 
concerns with the Department of Justice's implementation of the Act and 
our Tribe's own particular concerns about how the Act might, or might 
not, be sustained.

About Warm Springs
    The Warm Springs Tribe is comprised of over 4,500 members and 
occupies the 650,000-acre Warm Springs Indian Reservation in North 
Central Oregon. Warm Springs is one of three non-Public Law 280 Tribes 
among Oregon's nine Tribes, and the Warm Springs Police Department is 
the primary law enforcement provider on the Reservation. As on many 
reservations, the law enforcement presence on our Reservation is 
sparse, primarily due to insufficient federal support.
    Today, at present, Warm Springs does not have a sex offender 
registry, and our specific experience with such a function is very 
limited. We do, however, have a Parole and Probation Office that lists 
and tracks the parole and probation status of those Indians convicted 
of criminal offenses in our Tribal Court, including those convicted of 
sex offenses. The Parole and Probation Office also has links to county 
and State of Oregon counterpart offices. So, we have some capacity and 
conviction registry and tracking experience, but we are not experienced 
or equipped to meet the specific Adam Walsh requirements.
    Our Tribe has exercised jurisdiction over what is today the Warm 
Springs Reservation since time immemorial. We have always carefully 
guarded that sovereign authority, including through the 1950s as other 
Oregon tribes were stripped of that authority by P.L. 280 or were 
completely terminated. To be suddenly informed that the U.S. Congress 
has unilaterally acted in these modern times to place a portion of that 
sovereign authority in jeopardy, and to saddle tribal governments with 
unsought new obligations and expenses, is startling and abhorrent to 
us. We immediately undertook to learn more about the Act and its 
implementation. We attended consultation sessions conducted by the 
Department of Justice and developed and submitted comments on the DOJ's 
proposed guidelines for implementation of the Adam Walsh Act. Several 
of those comments remain critical to us--and we believe to all tribes 
seeking to assume the Act's registry responsibilities--and we discuss 
them as on-going concerns later in this testimony. After assessing our 
limited options under the Act, the Warm Springs Tribal Council enacted 
a resolution to take on the registration requirements, and we submitted 
that resolution to the Department of Justice on June 26, 2007, in 
compliance with its deadline.

Compliance Efforts
    We attended a July 31, 2007 tribal consultation session with the 
Department of Justice in Phoenix, Arizona where DOJ announced that 
implementation grants would be available. Accordingly, Warm Springs 
submitted a grant application to the Department of Justice SMART Office 
by the September 4, 2007 deadline for Adam Walsh implementation grants. 
In April of this year, seven months after we submitted our grant 
application, we initially received confusing information from DOJ about 
the status of our application, but on April 20, we were informed we 
were to receive a grant, and on April 30, Warm Springs Secretary/
Treasurer Charles Calica officially received notification from DOJ of 
an Adam Walsh implementation grant award in the amount of $300,000.
    However, we have not been able to start spending it. On May 13, we 
received a request from the SMART Office Chief Financial Officer for a 
budget narrative and listing of cost categories. On June 11, Warm 
Springs submitted the information we believed the SMART Office 
requested. But on June 17, the Department of Justice informed Warm 
Springs that our first submission is insufficient, and that more 
detailed budget information is required.
    We are developing that more detailed budget information, but until 
our budget is finally deemed acceptable by DOJ, we are unable to access 
any of the grant funds, effectively delaying our ability to start 
acquiring and developing the capacity necessary to meet both DOJ 
deadlines of April 27, 2009 for certification of capacity and July 27, 
2009 for commencement of registration activities.
    In the meantime, and in fact since we first became aware of the 
Adam Walsh Act's application to tribes, Warm Springs has had to spend 
more than $10,000 of our own funds to learn about and work toward 
complying with the Act.
    Today, as we try to comply with additional DOJ grant requirements, 
Warm Springs finds itself with each passing week facing a shorter and 
shorter time in which to acquire the registration capacity that must be 
submitted to DOJ by April 27, 2009. That leaves us nine months in which 
we must acquire the necessary digital fingerprinting and photo hardware 
and software, engage a Registry Administrator to operate the system, 
engage a police officer to help carry out any necessary enforcement 
actions and perform registration functions when the Registry 
Administrator is not on duty, train both, establish information-sharing 
protocols with other jurisdictions and upgrade our computer capacity, 
upgrade links to the State, house the Registration office, revise our 
Tribal Code to reflect Adam Walsh requirements, and train our Tribal 
Court personnel about the Act. In addition, we now need to make certain 
that our anticipated implementation plan comports with the Justice 
Department's Final Guidelines for the Act, which were only issued this 
month, eleven months after the comment deadline. If our implementation 
program, which we have not yet been able to begin, is not completed to 
the satisfaction of the Department of Justice by April 27 of next year, 
we may have to request from the Attorney General a one-year 
implementation extension as provided in the Act.
    In revising our Tribal Code to accommodate the Adam Walsh Act, 
there are a number of policy and jurisdiction issues that will have to 
be considered. For instance, even though the Adam Walsh Act does not 
require tribes to make it a crime for a sex offender to fail to 
register, our Tribe will have to think about whether it wants to create 
such a criminal violation. That's probably the most effective way to 
get convicted sex offenders to comply with the registration 
requirement. It would also help to avoid an Adam Walsh Act enforcement 
vacuum on the reservation that could leave non-registrants at large on 
the reservation and place our sovereign authority over this issue in 
jeopardy of revocation by the Attorney General. Such a criminal 
violation could also be enforceable against non-Indians as a civil 
infraction. Any non-Indians who live or work on the reservation, and 
who have been convicted in state or federal court of a sex offense that 
requires Adam Walsh Act registration, are required to register with the 
Tribe. Once we are able to access the DOJ grant funds, we will began 
work on the Tribal Code provisions requiring compliance with the 
Tribe's sex offender registration requirements. It will have criminal 
penalties for Indians and civil infraction consequences for non-
Indians.
    Meanwhile, since we learned about application of the Adam Walsh Act 
to tribes, Warm Springs personnel have been active where we can be in 
developing coordination for the implementation of the Act. The Oregon 
Governor's Office has invited Warm Springs, along with all of Oregon's 
eight other tribes, to participate in the State ``Public Safety 
Cluster.'' These are quarterly meetings that involve State public 
safety representatives and now all 9 tribes' public safety personnel 
under the State/Tribal government-to-government process. We give each 
other updates on the Adam Walsh Act among other public safety issues 
that impact either jurisdiction. Also since passage of the Adam Walsh 
Act, Warm Springs participates in the sex offender networking meetings 
being conducted quarterly by the State specifically to coordinate on 
Adam Walsh requirements. Warm Springs is fortunate to have good 
relations with the State of Oregon and with several surrounding 
counties, and we are counting on that history of good relations to ease 
and speed the coordination required under the Act.

Additional Concerns
    Mr. Chairman, Warm Springs should note that the $300,000 DOJ grant 
we have been awarded is the amount we requested, and we believe it will 
be sufficient to implement the program for one year. However, we are 
concerned about the availability and adequacy of federal support for 
the cost of continuing operations in out years. Under our plan to meet 
the requirements of the Adam Walsh Act, Warm Springs will have on-going 
annual costs of approximately $175,000. Like most of Indian Country, 
our fiscal resources are quite limited, and if there is not sufficient 
federal support, the Tribe could be placed in the exceptionally unfair 
position of drawing funding from other critical Tribal services to meet 
the unfunded mandate imposed by the Adam Walsh Act or face the 
diminution of our tribal sovereignty. So that tribes are not placed in 
this untenable position, we urge this Committee and the Congress to 
authorize and appropriate the funds necessary for tribal compliance 
with the Act on an on-going basis.
    Warm Springs also wishes to emphasize two other prospective 
troublesome issues we, and other tribes, commented on for the proposed 
implementation guidelines, but which remain unaddressed in the final 
guidelines issued earlier this month.

        First, the Tribe is disappointed that the final guidelines lack 
        a ``due process'' mechanism for determining tribal compliance 
        with the requirements of the Act. It is highly objectionable to 
        Warm Springs that the Attorney General is allowed to 
        unilaterally determine that a tribe has failed to comply with 
        the Act and, as a penalty, delegate jurisdiction over the 
        Tribe's reservation to the state. Clearly, such an 
        administrative delegation of state jurisdiction over Indian 
        Country is not only offensive to tribal sovereignty, it appears 
        to be unprecedented in the more than two centuries of federal-
        tribal relations. Certainly, such a grave decision by the 
        Attorney General, with such serious consequences for tribal 
        sovereignty and jurisdiction, should be undertaken with great 
        reluctance. Moreover, such a decision must, at a minimum, be 
        subject to judicial challenge by the affected tribe under 
        procedures that are consistent with the due process 
        requirements of the United States Constitution. Warm Springs 
        urges the Attorney General to adopt such procedures.

        Second, we strongly object to the provisions of the final 
        guidelines regarding initial registration of convicted sex 
        offenders incarcerated in the federal prison system. Unlike 
        prisoners incarcerated in state and tribal facilities, federal 
        prisoners are not required to register before they are released 
        to the community under the final guidelines. The supposed 
        justification for that glaring omission in the otherwise 
        comprehensive requirement that incarcerated sex offenders must 
        register before release is that there is no federal 
        registration system. That is no excuse for not registering 
        federally incarcerated sex offenders before their release. 
        Certainly, it should be possible for the Federal Bureau of 
        Prisons to arrange for incarcerated sex offenders to register 
        with the state in which the federal correctional facility is 
        located. That is simply a matter of federal-state coordination 
        and cooperation. The alternative--simply releasing without 
        registering sex offenders convicted of the most serious 
        felonies, many of whom committed their sex crimes in Indian 
        Country--is unacceptable in view of the public safety threat 
        these violators pose. We recognize that the Bureau of Prisons 
        and the federal probation offices must notify state and local 
        law enforcement and registration agencies in destination 
        jurisdictions prior to the release of a convicted sex offender, 
        but the Bureau should ensure that offenders are registered in 
        the appropriate jurisdictions before they are released.
    Mr. Chairman, Members of the Committee, that concludes my 
testimony. Thank you for the opportunity to appear today and discuss 
our efforts to comply with the Adam Walsh Act.

    The Chairman. Mr. Chairman, thank you very much for your 
statement. We appreciate your being here and your testimony.
    Next, we will hear from the Honorable Isidro Lopez, who is 
Vice Chairman of the Tohono O'odham Nation, Sells, Arizona. I 
hope I have pronounced that correctly, Mr. Chairman.
    Mr. Lopez. Yes.

   STATEMENT OF HON. ISIDRO B. LOPEZ, VICE CHAIRMAN, TOHONO 
                         O'ODHAM NATION

    Mr. Lopez. Good morning, Chairman Dorgan, Vice Chairman 
Murkowski, and distinguished Committee members. My name is 
Isidro Lopez and I am the Vice Chairman for the Tohono O'odham 
Nation. I thank you for the opportunity to testify today.
    The Tohono O'odham Nation is the second largest reservation 
in the United States and the nation's government has formed 
longstanding partnerships with the Arizona Department of Public 
Safety and a host of other law enforcement agencies to register 
sex offenders and protect the public's safety on and off the 
reservation.
    The Tohono O'odham's own registration and notification law 
was enacted several years before the Adam Walsh Act and our 
program is staffed by a full-time State-certified tribal police 
detective. As a result, the nation has registered more than 216 
sex offenders on the reservation, with a resident population of 
14,000. We understand the dangers posed by sex offenders whose 
identities remain hidden and we are committed to public 
disclosure of offender information.
    Although the nation elected to carry out its own functions 
under section 127 of the Act, it is difficult to obtain the 
funding necessary to achieve full compliance. Because the FBI 
stopped funding Indian Country crime lab services in 2006, the 
nation entered into an intergovernmental agreement to reimburse 
the State of Arizona $130,000 annually for crime lab services, 
including the analysis and storage of offenders' DNA samples. 
This data is then entered into the FBI's combined DNA index 
system database in order to achieve the goal of making this 
evidence nationally available.
    In addition to the DNA collection and the services provided 
by the State of Arizona's crime lab, the State also has been 
posting the nation's registration on the Arizona sex offender 
website and entering our offenders into the State criminal 
justice information system for years. While the State and the 
nation are now discussing an intergovernmental agreement to 
formalize a website service arrangement, the nation is also 
meeting with vendors who can create and launch a website that 
will fully comply with the Act.
    Despite the fact that the funding to implement the Act and 
its guidelines and the jurisdictional maze Indian tribes always 
face, the nation has been working closely with our neighboring 
counties, the State, the City of Tucson, our tribal and Federal 
partners, to implement and strengthen our sex offender 
registration program.
    These partnerships operate without official agreements, but 
have been highly successful. Coordination with the U.S. 
Marshal's office, for example, has resulted in apprehension of 
charging five Indian and non-Indian offenders for non-
compliance with the nation's law. The Federal and State 
probation departments likewise assist in registering offenders 
who are subject to registration in the nation, at the halfway 
houses before their release.
    The nation is greatly encouraged that the final guidelines 
remove the option for States to ignore tribal convictions based 
on a perception that tribal justice systems deny fundamental 
rights that are in fact guaranteed under tribal law and the 
Indian Civil Rights Act.
    That said, the nation is deeply troubled that even the most 
horrific sex crimes are categorized in the least serious tier 
of offenses if the conviction is obtained in tribal court. The 
Indian women and children suffer no less, and perpetrators are 
no less dangerous to the off-reservation public just because 
tribal courts are limited by Federal law to imposing no more 
than one-year sentences for rape and child molestation.
    If even the most serious sex crimes are classified within 
the least serious tier of offenses, the goal of the Adam Walsh 
Act, one comprehensive system, one safety net without gaps, is 
undermined. Ultimately, the nation's success in achieving the 
goals of the Adam Walsh Act hinges on full recognition of 
tribes as equal partners in the fight against these terrible 
crimes. The extensive network of working partnerships we have 
developed in Arizona must be matched by a recognition in the 
Act and guidelines that States and tribes are equal.
    Thank you.
    [The prepared statement of Mr. Lopez follows:]

   Prepared Statement of Hon. Isidro B. Lopez, Vice Chairman, Tohono 
                             O'odham Nation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Chairman Lopez, thank you very much for your 
testimony and for being with us today.
    Next, we will hear from Tribal Councilman Robert Moore from 
the Rosebud Sioux Tribe in Mission, South Dakota.
    Mr. Moore, thank you very much.

  STATEMENT OF HON. ROBERT MOORE, TRIBAL COUNCILMAN, ROSEBUD 
                          SIOUX TRIBE

    Mr. Moore. Thank you very much, Mr. Chairman. I appreciate 
the opportunity to be here today. Senator Tester, good to see 
you as well. To all the Committee, we extend our appreciation 
for being here to represent the Rosebud Sioux Tribe as a 
representative not only from our own tribal nation, but of the 
Great Plains tribes as well, which you know so well, Senator 
Dorgan. We want to thank you for all your continued work.
    We want to thank you for the $2 billion for the PEPFAR 
activity. It will go a long way to address some of the issues 
that need to be addressed concurrent to the implementation of 
the Adam Walsh Act, such as increased law enforcement, 
increased victim services, and certainly even within the Indian 
Health Service, some of the issues that occur when a child or a 
young woman is sexually assaulted or molested.
    I was asked to read one brief story from a tribal member 
who had this happen to her. ``I am an enrolled member of the 
Rosebud Sioux Tribe. I am an 18-year-old female who was 
sexually assaulted when I was 15 years old. I was raped by a 
neighbor who was in his early 20s. He is now in prison doing 
seven years. One night I went to a neighbor's house with an 
older girl and he raped me. I remember the rape. I just 
couldn't help myself. It was like I was dreaming and my dream 
became a nightmare.
    I remember the ambulance taking me to the emergency room 
where I lay bleeding in the trauma room for over eight hours. 
Then I was taken upstairs and admitted. After 24 hours, I was 
then flown to Sioux Falls where I was treated for my injuries. 
I remember how scared I was and I thought I was going to die. I 
survived, but had to go to mental health and support groups at 
White Buffalo Calf Women Society. This is where I met other 
victims who helped me.
    My family took me to a traditional healing ceremony and 
this is where I am today. The rape has affected my entire 
family. My mother has always been there for me throughout this 
whole traumatic experience. The support I received from victims 
through White Buffalo Calf and my family have helped me to cope 
with the sexual assault.
    Today, I still attend the support groups and help others 
who went through sexual assault because I have been there and I 
am glad that our tribe has established a sexual offender 
registry so that people can be aware of the sex offenders in 
our area.''
    We are somewhere in the middle of the two tribes you have 
heard from already this morning in terms of the implementation 
of Adam Walsh. We established our own sex offender registration 
law at Rosebud about three months prior to the enactment of 
Adam Walsh, and feel the same as many tribes around the Country 
who already expressed their concern that Adam Walsh did not 
happen with tribes, but it happened to tribes.
    So now we are having to face some of the ramifications of 
that, including the State's Attorney General having such great 
authority to determine whether a tribe is in compliance or not 
by the deadline or even following the deadline, if the deadline 
for implementation is not extended. We are deeply concerned 
about that because of the resources that tribes have already 
said they have had to share themselves.
    Certainly with us, our Violence Against Women Act safety 
grant is now funding activities that otherwise should be coming 
from the Adam Walsh implementation grant which we were not 
awarded, and certainly you can see the hoops that now a tribe 
has to jump through at Justice just to receive the resources to 
build their own system and to manage their own system and to 
protect what is their sovereignty.
    In South Dakota, as you are probably aware, we have great 
jurisdictional issues with the State of South Dakota. They 
would jump at the chance to have any entrance onto any of our 
current tribal jurisdictions, even in surrounding counties 
outside of the main Todd County, which is the Rosebud 
Reservation proper.
    We are also concerned about the release of Federal inmates 
convicted of sexual offenses that are not registered prior to 
their release. As you articulated this morning as well with the 
Dru Sjodin case, that was the case. He was not registered 
before he was discharged and released.
    Ironically for tribal citizens who are in the same 
situation, they will get better health care in Federal prison, 
but then they have a three-day free pass to go anywhere they 
want, and perhaps repeat an offense again. So it is a very 
significant issue for us and of grave concern.
    We are also concerned about the funding issues and the 
competitive nature of these grants, because without having to 
compete for them, we would be able to have those resources 
directly to tribes to support what is the need of that 
particular tribe, given their size and jurisdiction and their 
ability to perform the work, because it already establishes a 
failure on the part of the tribe if they are not given those 
resources to implement the Act.
    That is just real briefly. You have my written testimony. 
We have shared our sex offender law with the staff as well for 
the Committee, and we want to continue working with not only 
your Committee, but others, the Department of Justice and 
others, like Leslie Hagen of the SMART office who has been such 
a great value to tribes in helping them through the process, 
that we want to be able to do everything we can to make this 
law work, not only for the State of South Dakota and for the 
Rosebud Sioux Tribe, but so that the legacy that Adam Walsh 
will have for Members of Congress like yourself will be rich 
and strong.
    Thank you.
    [The prepared statement of Mr. Moore follows:]

  Prepared Statement of Hon. Robert Moore, Tribal Councilman, Rosebud 
                              Sioux Tribe

    The Rosebud Sioux Tribe is located in south central South Dakota 
and borders the Pine Ridge Reservation on its northwest corner and the 
State of Nebraska to the south. The reservation is located in Todd 
County, however, the Tribe's jurisdiction extends to tribal communities 
in Gregory, Mellette, Lyman and Tripp Counties in South Dakota covering 
over 5,900 square miles.
    The area is home to over 25,000 enrolled members of the Tribe with 
an average per-capita income of $7,500. Todd County is historically 
recorded by the United States Census Bureau as one of the top five 
poorest counties in the United States. Over 50 percent of our 
membership is under the age of 21. The unemployment rate hovers around 
84 percent. There are several thousand non-Indians within the Tribe's 
civil jurisdiction.
    The Tribe has contracted law and order services from the Bureau of 
Indian Affairs through the Public Law 93-638 process and currently have 
16 officers to respond to calls. This significant disparity in 
population and geographical service area to the number of officers on 
duty at any given time is a grave concern of tribal leaders who are 
responsible for public safety and tribal court services. The tribal 
court is inundated with a case load into the hundreds with two 
prosecutors, two full time judges, one public defender and minimal 
court support staff.
    Historically, crimes against children were unheard of as they are 
held sacred. In the rare instance of a crime, especially sexual 
assault, tribal members were ostracized from the tribe. The advent of 
such horrific crime, often fueled by other social and economic factors, 
has deepened the reverence of children for our Tribe and raised the 
urgency to strengthen tribal law to properly charge, adjudicate and 
build victim support services.
    As a result of raised awareness by local victim advocacy groups, 
notably the White Buffalo Calf Woman Society, Inc, the Tribe's plan of 
action was to adopt Megan's Law and establish a resolution for Rosebud 
Sioux Tribal Council to enact a Sex Offender Registry on April 25, 2006 
at least 3 months prior to the signing of the Adam Walsh Act.
    The Adam Walsh Act, passed without tribal consultation or comment, 
represents a significant assault on tribal sovereignty. The State of 
South Dakota was an option state after the passage of Public Law 280. 
In other words, the State of South Dakota has the option of assuming 
criminal jurisdiction on Tribal lands and reservations.

    The State made numerous attempts at assuming piecemeal jurisdiction 
over tribal lands, but the Tribes in the State of South Dakota sought 
declaratory and injunctive relief from the State of South Dakota from 
exercising jurisdiction over Indians on highways within Indian 
reservations. Rosebud Sioux Tribe v. State of South Dakota, 900 F. 2d 
1164 (8th Cir. 1990).
    In May of 2007, the Rosebud Sioux Tribe enacted a resolution to 
opt-in as the primary for administering sex offender registration 
provision of Adam Walsh.
    While federal law predating the Adam Walsh Act provided national 
standards for state sex offender registration programs, it made no 
comparable provision concerning sex offenders who are convicted in 
tribal courts, or who enter the jurisdiction of a tribe following 
conviction in some other jurisdiction. As a result, there has been a 
lack of consistent means for tribal authorities to be notified on sex 
offenders entering their jurisdictions, to track those offenders, or to 
make information about those offenders available to members of tribal 
communities for the protection of themselves and their family. With 
assistance and guidance of Department of Justice and SMART Office, 
White Buffalo Calf Woman Society, Inc. developed another resolution 
with implementation of the Adam Walsh Act in which Rosebud Sioux Tribal 
Council passed on May 10, 2007.
    Currently, White Buffalo Calf Woman Society, Inc. (WBCWS), the 
Tribe's designated lead victims service agency, is utilizing a Safety 
Grant for Indian Women to work with the state of South Dakota on the 
Adam Walsh Act-Sex Offender Registry. The Tribe's Attorney General, 
with WBCWS is working closely with State's Attorney General's office to 
draft a cooperative agreement concerning the transfer of electronic 
information and to address other issues as necessary for full 
implementation by the July 2009 deadline for Tribes. In addition, we 
have signed memorandum of agreements with surrounding counties for 
which the Tribe has jurisdiction.
    In fact, the Rosebud Sioux Tribe's sex offender registration law 
requires that convicted offenders who are sentenced to register must 
register twice a year and extends severe civil penalties to non-Indian 
offenders. The State of South Dakota currently requires that offenders 
register only once a year.
    There are currently 38 registered sex offenders within the Tribe's 
jurisdiction. However, within the next 5 years, given recent cases and 
convictions we may see that number rise to over 60 offenders who must 
register with the Tribe.
    With that in mind, there are several key issues of concern for 
consideration in the enforcement of Adam Walsh within our jurisdiction.
    We must have additional dollars to increase law enforcement. The 
Tribe has one designated officer responsible to enforce the Tribe's 
existing registration law which is attached to this testimony.
    Additional resources will further allow the Tribe to adequately 
address the many man hours to ensure that our code meets the standards 
of the recent SORNA final regulations, approved and make sure all the 
technical aspects (databases, computer equipment, etc.) of the Act are 
in place.
    Further, Congress must address issues and concerns of tribes with 
the Adam Walsh Act.
    Currently the Act, affirmed by the final SORNA regulations permits 
the United States Attorney General the discretion to the State to 
enforce state law and jurisdiction over Indians of the reservation 
despite the passage of the Indian Civil Rights Act of 1968, a federal 
act requiring tribal consent to the assertion of state jurisdiction. 
The Adam Walsh Act permits assertion of state authority on Indian 
reservations without requiring tribal consent, and is therefore 
represents a significant erosion of tribal sovereignty.
    Congress must compel the US Attorney General to fully address and 
establish a due process to tribes found out of compliance with the Act 
and to provide resources to bring tribes into compliance, including 
technical assistance and other human, as well as financial, resources. 
This may also include assisting tribes in establishing coalitions to 
enforce the Act within tribal jurisdiction where a smaller tribe may 
not have the ability to do so on their own.
    Finally, Congress must look at extending the July 2009 deadline to 
ensure that Tribe's, including the Rosebud Sioux, are consulted in a 
meaningful way to address ongoing concerns with the Act and any future 
legislation that forces tribes to submit to state jurisdiction and 
abrogates treaty, federal and constitutional law.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Mr. Moore, thank you very much for your 
testimony.
    Next, we will hear from Mr. William Gregory, who is a 
Tribal Prosecutor at Little Traverse Bay Bands of Odawa Indians 
in Harbor Springs, Michigan.
    Mr. Gregory, thank you for joining us today.

    STATEMENT OF WILLIAM GREGORY, TRIBAL PROSECUTOR, LITTLE 
              TRAVERSE BAY BANDS OF ODAWA INDIANS

    Mr. Gregory. Thank you very much, your honor. It is a 
privilege to be here to share information from Michigan Indian 
Country. I thank you and the Committee and the staff for this 
opportunity.
    Michigan Indian Country is composed of 12 federally 
recognized Indian tribes. We have been working in a consortium 
for the last two years to secure funding and to encourage 
cooperation among the tribes on law enforcement issues. I have 
been a prosecutor and a judge at five different tribes in 
Michigan since 1989. In my experience, I found a great deal of 
problems with tribes sharing information.
    In Michigan, we have an excellent relationship with the 
Federal and State governments. The State of Michigan allows 
Michigan tribes to utilize the law enforcement information 
network which is an area where you can get criminal histories, 
background checks, but the big problem is that the tribal 
courts, tribes do not put their criminal convictions on that 
link system.
    So when we do a criminal background check in a tribe in 
Michigan, it is incomplete because we don't know what is going 
on in the other tribes. This makes us handicapped when it comes 
to the officers knowing who they are dealing with and what kind 
of person they are dealing with, and also for the prosecutors 
to understand that they could possibly be enhancing a charge 
against a particular individual.
    So for two years prior to Adam Walsh, we have been 
struggling with how to get this information-sharing going. 
Again, most of the tribes in Michigan have--there are 11 of the 
12 that have deputization agreements with their local counties. 
They also have a good relationship with the Western District 
U.S. Attorney's Office because 11 of our tribes are located in 
the Western District.
    Adam Walsh has been well explained. The impact has been 
felt in Michigan as well. The ultimatum about setting up your 
own sex offender registry or let the State come in and give 
them access encouraged all the tribes of Michigan to file 
resolutions to set up their own sex offender registry, without 
knowing the impact, the options and all the problems that might 
be there.
    Fortunately, in Michigan we have had some grants, some 
great grants that have allowed us to put into place 
infrastructure that I think will serve us well as we go 
forward. Just quickly, I would like to mention a few of those. 
In 2006, T-CHRIP, which stands for Tribal Criminal History 
Record Improvement program, gave us some money for the tribes 
in Michigan which we went around to the tribal courts and 
helped them set up databases, because the basis for a good 
criminal information-sharing system is a tribal court or a 
court that can share information on convictions.
    In 2007, from T-CHRIP, we got a live-scan grant to provide 
all the tribes in Michigan with live-scan. It also takes the 
fingerprints and the palm prints which makes it Adam Walsh-
compliant. From VAWA, we received grants to set up a personal 
protection order database. We have also requested in 2008 to 
expand that to all of the tribes.
    We are also looking for a grant from T-CHRIP for record 
management systems, for all the law enforcement departments, 
again the type of record management system that can be stored 
information and can exchange that information with other law 
enforcement agencies.
    And then we were fortunate to get a grant from SMART office 
in 2007 for technology and training. Those grants have all 
formed and created an infrastructure on which part of each will 
contribute to the Adam Walsh Act necessity, technology, 
connectivity that we anticipate.
    The outlook for compliance in Michigan, the tribes are 
working cooperatively. They have identified options at recent 
summit meetings over the last year. There are committees right 
now that are preparing impacts for tribal leaders to identify 
the best options so that they can make a decision. Once the 
tribal leaders make a decision to go forward, I believe that 
compliance in Michigan is possible by the goal established by 
the Act, but more than likely we will need an additional year.
    Thank you.
    [The prepared statement of Mr. Gregory follows:]

   Prepared Statement of William Gregory, Tribal Prosecutor, Little 
                  Traverse Bay Bands of Odawa Indians

    Mr. Chairman and members of the Committee; The Little Traverse Bay 
Bands of Odawa Indians, on behalf of the 12 federally recognized tribes 
\1\ in Michigan, would like to thank you for this opportunity to 
provide input on the implementation of the Adam Walsh Act in Michigan's 
Indian Country.
---------------------------------------------------------------------------
    \1\ The word Tribe and Band are used interchangeably in Michigan.
---------------------------------------------------------------------------
    The 12 tribes are located throughout the state. The tribes are 
known as the Three Fires of the Algonquin Tribe who migrated from New 
England. The Three Fires are composed of the Odawa (Ottawa), the 
Ojibeway (Chippewa), and the Poddawadomi (Pottawatomi). The Odawa were 
traditionally located along the western shore of Lake Michigan and were 
manly involved in fishing and trading. The Ojibeway were located along 
the eastern shore of Lake Huron and the north shore of Lake Superior 
and were mainly involved in fishing. The Poddawadomi were located in 
the southwestern area of Michigan and were mainly farmers. One tribe of 
Poddawadomi, the Hannahville Indian Community, moved to the Upper 
Peninsula of Michigan to escape the relocation of their tribe to 
Kansas.
    I have served as a prosecutor for 19 years with several Michigan 
tribes, Grand Traverse Bands (12 years), Saginaw Chippewa Indian Tribe 
(3 years) and the Little Traverse Bay Bands of Odawa Indians (6 years) 
as well as a special prosecutor for the Little River Band of Ottawa 
Indians, and the Sault Tribe of Chippewa Indians. Some of these 
assignments overlap in time. I also served as an interim chief judge 
for the Saginaw Chippewa Indian Tribe of Michigan.
    The Michigan tribes have a good relationship with the Michigan 
State Police and all tribal law enforcement departments utilize the 
Michigan Law Enforcement Information Network (``LEIN'') for background 
checks and other criminal justice information.
    The criminal history records available on LEIN do not contain 
tribal court convictions so the criminal histories are incomplete. As I 
prosecuted in the different tribal courts I often dealt with offenders 
that I had dealt with in other courts. In those rare instances I could 
enhance charges if the offender had prior convictions for the same 
offense. As a prosecutor I would only learn about a prior conviction by 
personal knowledge from prior contact or by informal talks between law 
enforcement personnel from other tribes.
    I was concerned about this lack of criminal histories from other 
tribes so I asked our grant writer to be on the lookout for any grants 
that would provide funds to establish a tribal wide criminal history 
repository for Michigan tribes. My grant writer was skeptical but 
within a few months of my inquiry we received word of the Tribal 
Criminal History Record Improvement Program (``T-CHRIP'') funded by the 
Bureau of Justice Statistics in the Department of Justice. We received 
funding for 2006 to explore means and methods for enhancing law 
enforcement in Indian Country through a tribal criminal history 
repository that would be accessible to tribes and the Michigan State 
Police. During our first round we learned that the first and foremost 
problem was the lack of criminal information capable of being shared. 
The thrust of the first T-CHRIP grant was to assist Michigan tribes 
develop sharable databases using Microsoft Access and the services of 
Aventure Technology of Santa Fe New Mexico, a firm with extensive 
experience serving tribes in New Mexico.
    In 2007 the Little Traverse Bay Bands (``LTBB'') secured funding 
through a Violence Against Women's Act (``VAWA'') grant to establish a 
pilot program for a personal protection order (``PPO'') database with 
four (4) Michigan tribes. The database will be operational at the end 
of July, 2008 and the LTBB has made application for a follow on grant 
to complete the database for all Michigan tribes. The infrastructure 
for the PPO database will also support a criminal history network as 
well as a sex offender registry as required by the Adam Walsh Act 
(``AWA'').
    In 2007 the LTBB received a second T-CHRIP grant to purchase 
livescan fingerprint machines for all Michigan tribes. Automated 
fingerprinting is a basic necessity for all tribes because the State of 
Michigan and the FBI no longer accepts paper finger prints cards. The 
latest model livescan machines also receive palm prints, a requirement 
of the AWA.
    In 2008 the LTBB applied for another T-CHRIP grant to purchase 
record management systems (``RMS'') for tribal law enforcement 
agencies. Some tribes only use a paper filing system to keep track of 
investigation and arrest information. An RMS contains more information 
than a typical criminal history record that only contains court 
convictions. A tribal network of RMS will aid investigations and the 
collection of crime statistics.
    The tribal court databases, the PPO database, the RMS network, and 
the livescan fingerprint machines form an infrastructure that will lead 
to complete justice information sharing among tribes and assist the 
tribes to comply with AWA.
    In 2007 the LTBB received a grant from the SMART Office on behalf 
of all Michigan tribes for training and infrastructure to facilitate 
AWA implementation. The SMART Office has been extremely helpful in 
general and Leslie Hagen in particular. Ms. Hagen has attended every 
conference and training sponsored by the SMART Office and she has 
attended several conferences in Michigan. She is well versed on the AWA 
and is an excellent advocate for Indian Country USA.
    The AWA was a bolt out of the blue for Indian tribes throughout the 
nation; tribes complained that the AWA was an unfunded mandate and the 
Department of Justice did not consult with tribes before the enactment 
of the AWA. The single most onerous aspect of the AWA for tribes was 
the ultimatum that if tribes didn't elect to stand up their own SOR the 
State of Michigan would assume responsibility and the state would be 
given access to the tribal justice systems. Under this threat every 
tribe in Michigan filed resolutions with the SMART Office by July 27, 
2007 to stand up their own SOR. Michigan tribes made their election 
without knowing the full impact of their election.
    LTBB has hosted two conferences to provide information to the 
tribes about the different options the tribes have for implementing AWA 
and the impact of each option. The Smart Office, the US Attorney for 
the Western District of Michigan, \2\ and SEARCH, a national non-profit 
organization that works on national information sharing standards, and 
the Michigan Sex Offender Coordinator have provided information to 
Michigan tribes.
---------------------------------------------------------------------------
    \2\ There are 12 federally recognized tribes in Michigan; 11 are 
located in the Western District. For more than 10 years the Western 
District has employed a Indian Country liaison AUSA. The western 
district has been extremely supportive of tribal efforts and has 
participated in all conferences and training sessions on Adam Walsh.
---------------------------------------------------------------------------
    Some tribes are leery of sharing information; they feel that it 
infringes on their sovereignty. Most tribes see the need for 
information sharing, especially as it pertains to criminal offenders 
who travel from reservation to reservation. These tribes see the 
sharing of information as providing officer safety and safer 
communities. Some tribes view the AWA as extending tribal sovereignty 
by requiring non-Indians who work, reside, or attend school to register 
with the tribes. The tribes also have the option to enact civil 
penalties for non-Indians who fail to register or update their 
registration. 18 USC 2250 makes it a 10 year felony offense for anyone 
who enters, leaves, or resides in Indian Country. Tribal leaders see 
the efficacy of knowing what sex offenders are residing, working, or 
attending school in their jurisdiction to protect children.
    Following the AWA Summit on July 1, 2008 in Petoskey Michigan, 
different disciplines within the various tribes are working together to 
form ad hoc committees to share ideas and come up with ways and means 
to comply with AWA.
    Four options for implementing AWA were identified and discussed at 
the July 1 Summit: (1) Each tribe stand up their own SOR; (2) 
Individual tribes stand up their own SOR and negotiate memorandums of 
understanding (``MOU'') with the State of Michigan to share different 
responsibilities under AWA; (3) Tribes form a consortium to develop a 
tribal wide SOR; and (4) Tribes form a consortium and negotiate an MOU 
with the State of Michigan to share responsibilities for a SOR.
    The next step is to reach tribal councils and executives, educate 
them about the different options and come to a consensus and proceed to 
implementation.
    The State of Michigan has participated in all the AWA conferences 
and trainings and is very willing to work with tribes in a manner of 
the tribe's choosing.
    The final guidelines for AWA were just released by the SMART 
Office; the final guidelines clarify some of the questions raised in 
the previous edition.
    Tribes are also encouraged to hear of the proposed Indian Law 
Enforcement legislation that I have had an opportunity to review. The 
Michigan tribes have been well served by the US Department of Justice. 
Because of the funding, the cooperation, and the training offered by 
the DOJ, the Michigan tribal law enforcement community would look 
favorably if Indian Country law enforcement were placed within the 
aegis of the DOJ. The BIA currently administers Indian Country law 
enforcement programs but the BIA is poorly equipped to perform their 
responsibilities and law enforcement is not the BIA's number one 
priority.
    Thanks to the efforts of the SMART Office, the Bureau of 
Statistics, and the VAWA office, Michigan tribes are well placed to 
comply with AWA within the established time frame. It will not be easy, 
there will be sacrifices, there will be spirited differences to 
reconcile but the rewards loom large: communities will be safer, law 
enforcement will be coordinated throughout Indian country; tribal 
courts will be more efficient, and tribes will be more unified.
    Thank you again for this opportunity.

    The Chairman. Mr. Gregory, thank you very much for your 
testimony. We appreciate your telling us of your experience 
with the multiple tribes in Michigan.
    Next, and finally, we will hear from Ms. Jacqueline 
Johnson, Executive Director of the National Congress of 
American Indians.
    Ms. Johnson, you may proceed.

 STATEMENT OF JACQUELINE JOHNSON, EXECUTIVE DIRECTOR, NATIONAL 
                  CONGRESS OF AMERICAN INDIANS

    Ms. Johnson. Thank you, Mr. Chairman.
    I want to personally also thank you, as well as Robert 
Moore, for the assistance that you gave in the bipartisan way 
that we were able to get this additional $2 billion, which is 
actually going to be very, very helpful for law enforcement, 
and certainly for the work that you did with your peers and 
colleagues to make this happen. I really appreciate that.
    But I also want to thank you, too, for the leadership that 
you have taken on this law enforcement bill. I think the work 
that you have done and your staff has done in collaborating 
with Indian Country to really find out what we need will 
support the things that we are saying here and recommending 
today, particularly the inclusion of all the tribes in the Adam 
Walsh provisions and requirements.
    As you said very clearly, this system, you know, there is a 
need for this system, and with the two bills as was heard here 
today, the two bills, the Violence Against Women and the Adam 
Walsh being passed within six months of each other, created 
confusion for Indian Country in the last two years. Indian 
Country is still standing by. I heard today some great 
recommendations, as well as some tribes who have stepped 
forward, putting forward their recommendations, putting forward 
their own resources to be able to address this issue, but 
unfortunately not all tribes are able to do that and they don't 
have the resources to be able to be in the same position. So we 
advocate today that we look for ways of being able to do that.
    As the deadline for implementation approaches, we are still 
finding that there is this great deal of confusion. The 
guidelines, as stated earlier, were just issued earlier this 
month, and we are still trying to figure out how they are going 
to come together with the Violence Against Women Office and the 
coordination and collaboration just within DOJ. It is something 
that still needs to be tackled.
    We also found that because many tribes, as was stated 
earlier, opted in so they could protect their sovereignty, 
those that were eligible to opt in to protect their 
sovereignty, have recognized that they need to work through or 
collaborate through working relationships with their States. 
Many States have historically been very good about that. Some 
States have been more challenging.
    But what we are hearing from the States as we monitor where 
the States are in their implementation is that many of them are 
also suggesting that the resources aren't there for them to 
comply with the Act. In fact, some States are even suggesting 
that it may be too expensive for them to comply and that they 
would rather receive 10 percent less than their Byrne revenues 
resources, grant-funding, than to have to comply. So we in 
Indian Country are also challenged. If a State chooses not to 
comply, it makes it more difficult for our tribe to comply.
    I could go on. My testimony is pretty detailed about all 
the issues and concerns that we have. But mostly today, I want 
to ask you, and of course the Senate Committee on Indian 
Affairs, to take leadership on this issue, to address these 
concerns, in order to re-address the law and to clarify the 
things that we need. Robert Moore mentioned Leslie Hagen, who 
has been working very closely with Indian Country. Many times 
she has to say to us over and over again, these are all the 
answers that I can tell you; this is the law as it is written; 
we need to get Congress to clarify for that.
    So I would like to just focus on the recommendations that 
we have in our testimony right now before I close. First, from 
the onset, the Adam Walsh Act left out over half the tribes 
from the national system. In order to have a truly seamless 
registration system, Congress must amend the Adam Walsh Act to 
allow all tribes to participate in the national sex offender 
registry system on an equal basis.
    Second, the role of the BIA has been totally left out. In 
fact, it has not been addressed. We urge Congress that you 
include the BIA and bring them into the national sex offender 
registration system. In our testimony, I go on about how many 
systems that the BIA actually operates and manages for tribes. 
Without their inclusion, we have a gap in Indian Country.
    And third, the Adam Walsh Act has given the Attorney 
General the unilateral authority to strip tribal governments of 
their civil and criminal jurisdiction to monitor ex-offenders. 
This unprecedented delegation is an extremely dangerous 
precedent and NCAI urges Congress to amend the law to protect 
both the tribal sovereignty and your right and authority over 
Indian affairs.
    And finally, while States have had decades to build their 
sex offender management systems and modified and updated to 
comply with the new law, many tribes are starting from scratch. 
It will be extremely cost for Indian Country to comply with the 
law's mandates. We urge that the Committee consider extending 
the compliance for all tribes to provide additional time for 
tribes to come online.
    We look forward to working with you and your staff on 
putting together a package of recommendations to consider to 
redress this legislation. Thank you very much.
    [The prepared statement of Ms. Johnson follows:]

Prepared Statement of Jacqueline Johnson, Executive Director, National 
                      Congress of American Indians

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Ms. Johnson, thank you very much.
    We will be introducing in just a matter of days, perhaps 
next Monday or Tuesday, the major law enforcement bill that we 
have put together. We have been involved in a lot of 
consultation around the Country on that piece of legislation. 
We now have nine cosponsors that are bipartisan. We will be 
formally introducing that bill in the Senate in just a matter 
of days.
    The reason I mention that is the subject today is really 
law enforcement, and how do we streamline and improve law 
enforcement on Indian reservations, and particularly how is the 
coordination between tribal governments and other governments 
improved.
    I think it was you, Mr. Lopez, who testified--someone did, 
I think it was you--who testified that we are in a circumstance 
where given the way the law is written, if a violent sexual 
predator commits a very violent act on a reservation, and for 
one reason or another it is not prosecuted perhaps by the U.S. 
Attorney in that area, but prosecuted by the tribal courts for 
whatever reason, no matter how violent that Act, it falls into 
tier one, because the sentence for that can be no more than a 
one-year sentence. Is that correct? Would you expand on this?
    Mr. Lopez. That is correct, because of the Indian Civil 
Rights Act. If a member is convicted in tribal court, because 
of our law, we can only prosecute or put in incarceration for 
one year. As they leave the reservation or when we speak to the 
State or the county, they are going to only recognize that they 
bring him to the lowest tier I guess because of their 
incarcerations, or rather their sentence has only been a year.
    The Chairman. But it is entirely possible in that 
circumstance you could have these folks mislabeled on the 
registration. If you have someone who is classified as a sex 
offender, but classified as tier one, when in fact it could 
possibly be a very violent sex offender, but because of the 
unusual circumstances of a tribal court in this case having had 
to take jurisdiction and being prohibited from exercising more 
than a one-year incarceration, it is very likely this would be 
information that would I think misinform people if they looked 
at it.
    Well, I will come back to that. Let me ask a number of 
other questions, if I might.
    Mr. Gregory, you indicate the T-CHRIP program you talked 
about.
    Mr. Gregory. T-CHRIP, yes.
    The Chairman. The T-CHRIP program and the need for a tribal 
record management system dealing with the history of offenders, 
perhaps not just sexual offenders, but all offenders.
    Mr. Gregory. Yes.
    The Chairman. Is it generally the case from your experience 
that no such system exists? That the tribal courts when meting 
out certain sentences to those who are brought before the 
courts do not register that sentence or do not describe that 
someplace in a record or database?
    Mr. Gregory. They keep it in their own database or filing 
system, whatever they may have, but they do not share that 
unfortunately at this time.
    The Chairman. Do tribal courts have access to the NCIC? 
Tribal courts do not have access to that routinely, right?
    Mr. Gregory. They could have it through the State of 
Michigan through the Michigan State Police criminal history 
record depository, then it would just go on.
    The Chairman. Certain cooperative circumstances exist I 
assume where tribal authorities, perhaps having agreements in 
some parts of the Country with local law enforcement 
authorities, could have access to information on the NCIC as 
they work together on a case, but it is likely the case that 
the NCIC, if it is not receiving information from dispositions 
or adjudication of criminal cases on the reservations, the NCIC 
is not having a complete list either then. Is that correct?
    Mr. Gregory. That is very true, your honor, very true. It 
is one of the main problems we have in law enforcement in 
Michigan. But through the cooperative efforts that we have 
carried out, I think that we are convincing them for safe 
communities and for officer safety. The law enforcement 
departments are strongly behind these measures. We are hoping 
that the impetus from the necessity for sharing information 
under the Adam Walsh Act is going to help us push the tribes 
into that cooperative agreements and cooperative efforts to get 
all criminal histories, including sex offenders, but of course 
we are mandated under Adam Walsh on sex offenders, but on other 
crimes as well because under Adam Walsh you have to have 
criminal histories when you register offenders.
    The Chairman. The criminal history is critically important 
if we are going to address real law enforcement needs in a 
significant way. The fact is in this Country generally, and I 
am guessing although I don't have the data, on Indian 
reservations a relatively small percentage of the crimes, or I 
should say a large percentage of the crimes will be committed 
by a small percentage of the population, in many cases over and 
over and over again.
    If you don't have an adequate criminal history, you have a 
very difficult time trying to address those issues with that 
smaller part of the population that is producing most of the 
criminal activity.
    Ms. Johnson, can you tell me what is happening across the 
Country with all of the tribes? I assume tribes are strapped 
for money, strapped for cash, strapped without the ability in 
many cases to make the significant technology investments that 
are necessary to have a really good criminal history record and 
be sharing that. Is that the case?
    Ms. Johnson. Yes. In fact, a lot of the tribal courts still 
don't have electronic systems for just managing the data 
themselves. So that would be one of the first steps, not only 
that, but technology, the live-scan technology that most tribes 
still don't have. It is good to see that there are projects out 
there that are trying to do those kinds of things. There are 
some tribes that are trying to do tribe by tribe recognition 
and sharing of data on a very small scale, and that needs to be 
expanded.
    But you were just talking about access to the NCIC systems. 
You know, less than 12 percent of the tribes have access to 
those systems right now. NCAI met with the Attorney General and 
said that was just paramount for us to be able to comply with 
the law. We are really concerned that if we don't get access, 
we will not be able to make the compliance requirement and then 
the Attorney General is in a position to determine, without any 
guidelines right now, of what meets compliance or not and could 
transfer sex offender jurisdiction over.
    The Chairman. So you are saying that access to that is 
important in terms of reaching compliance under the Adam Walsh 
Act?
    Ms. Johnson. Critical. Yes.
    The Chairman. Let me come back to that in a moment.
    Mr. Suppah, you indicated that your tribe is considering 
civil penalties for non-Indian violators on your reservation. 
Is that correct? A non-Indian sexual predator comes back to 
live on your reservation decides I'm not going to register no 
matter what the tribe has decided I should do. Do you feel like 
you have the capability of taking action and imposing a civil 
penalty that will stick on a non-Indian in that circumstance?
    Mr. Suppah. I guess the Adam Walsh Act does not require 
tribes to have a sex offender registry. So that kind of loop we 
wanted to address that by amending our tribal code to make it a 
criminal violation for failure to register.
    The Chairman. Let me ask any one of you who could answer 
this about the Bureau of Prisons and the willingness of the 
Bureau of Prisons to notify tribal governments before releasing 
sex offenders. Who has experience with that?
    Mr. Lopez?
    Mr. Lopez. We get our information, as I mentioned, when 
they are released through the halfway houses, because when they 
release, they just don't come home. They go through a halfway 
house, if you will. Once they are released from there, we get 
out information if they say they are going to come back to the 
nation, then their probation officers will let us know. That is 
how we find out.
    The Chairman. But the Bureau of Prisons does not let you 
know, as a routine matter?
    Mr. Lopez. No.
    The Chairman. In the law enforcement bill that we will be 
introducing, we do have a provision in that law enforcement 
bill that would require the Bureau of Prisons to share that 
information with tribal governments.
    Mr. Moore. That would be great. Likewise at Rosebud, we 
simply don't have that access to NCIC as well. In addition to 
that, we do have a civil infraction in our law for non-Indians 
for non-compliance of registering with our law, with a maximum 
penalty of a fine of at least $500, but not more than a $1,000 
fine. We understand we can't incarcerate them in our local 
jail, but we can fine them. So we have made it a civil 
infraction for non-Indians not registering within our 
jurisdiction.
    The Chairman. Has that been challenged at all?
    Mr. Moore. Not at all.
    The Chairman. Do you feel confident that you can make that 
stick?
    Mr. Moore. We can make it stick.
    Mr. Gregory. Mr. Chairman?
    The Chairman. Yes?
    Mr. Gregory. I also believe that, I believe I have the 
right cite, 18 U.S.C. 2250, which makes it a 10-year felony for 
someone who is supposed to register or to update their 
registration, and who either travels to Indian Country, travels 
out of Indian Country, or resides in Indian Country, could face 
Federal prosecution, serious Federal prosecution.
    I would also like to add, and I am sorry to add this, but I 
am very impressed with the law enforcement bill that I have had 
the opportunity to review. All law the enforcement community 
and the tribal community in Michigan strongly supports that 
bill. We would even look favorably with the Department of 
Justice taking over the administration of Indian Country law 
enforcement.
    One last recommendation would be that----
    The Chairman. Wait a second. Say that again? That is a 
surprising statement.
    Mr. Gregory. We have spoken about it many times.
    The Chairman. When you say we, you are speaking for whom?
    Mr. Gregory. I am sorry, the tribal law enforcement 
community. We have a Michigan Law Enforcement Association that 
meets on a monthly basis. They have often stated their 
preference to have Indian Country law enforcement come under 
the aegis of the Department of Justice rather than the Bureau 
of Indian Affairs.
    The Bureau of Indian Affairs lacks a lot of the resources 
necessary, the technology to take use of the statistics that we 
are required to supply to them. Their number one priority is 
not law enforcement, whereas under the Department of Justice it 
is.
    The Chairman. Ms. Johnson, what do you think of that?
    Ms. Johnson. That is a loaded question.
    [Laughter.]
    Ms. Johnson. Well, you know, I think that Indian Country 
has always wanted the Department of Justice to step up to the 
plate more, to take on the responsibilities, but understanding 
the jurisdictional and unique issues in Indian Country. 
Unfortunately, the way that Justice is structured right now 
where the tribal office sits within the structure it is not 
high enough in the system for us to be able to have the right 
kind of leadership from the helm.
    We did mention that when I met with the Attorney General to 
let him know that we really felt that in order to make the 
changes necessary for Indian Country to feel more comfortable 
with Justice, they would have to restructure themselves to have 
a representative or an office within his office to take some 
direction.
    Once that step is developed, then maybe Indian Country 
might feel a little bit different. I think a lot of folks in 
Indian Country might support that. Others would be scared of 
that just because of the unknown of what Justice could really 
do.
    The Chairman. Let me ask you to start at the top, Ms. 
Johnson, with me. I repeat what I said earlier today. I think 
there is no question that this Country has moved in an 
aggressive way to say we are not going to continue to do 
business the way we used to do business with sexual predators. 
Arrest them, put them in prison, no matter how violent. When 
they are let out of prison, you wave and give them a few bucks 
and they are off someplace, not monitored.
    We can't continue to do that. Those that are at risk for 
re-offending at high risk, and that is judged by psychiatrists 
and others. Mr. Rodriguez, who I described earlier, was judged 
to be at high risk and sure enough he murdered someone.
    We are not going to discontinue doing that, so we are going 
to do something very different. If that different approach 
means a registry that is significant, it is required, it is 
taken seriously. If that is the case, then that registry and 
the treatment of law enforcement all around the Country with 
this issue has to be thoughtful, serious and complete. You 
can't do that unless you include all aspects of this Country. 
The sovereignty of reservations is very important, but its 
sovereignty is no different than the sovereignty of our 
government. If we decide we are going to do something, we have 
to do it together.
    So I understand the difficulty of Indian tribes trying to 
respond to things that they are not quite certain with respect 
to the requirements. So go through with me, if you will, if you 
can, from the most important to the least important, the five 
or six things that need to be resolved in order to answer the 
questions that the tribes have about how to comply effectively 
with the Adam Walsh Act.
    Ms. Johnson. Okay. First of all, the tribes that are left 
out. What we are hearing, you know, the Public Law 280 States 
were left out of the system.
    The Chairman. Explain that for the record, Alaska and 
California.
    Ms. Johnson. Okay. Alaska, California, there is a list, 
Minnesota, it goes on. There are also some that were recognized 
States that came after the actual law of Public Law 280, but 
they have been exempted from the Act for compliance under the 
way that this is, and they would be subject to the States. But 
the difference is that for California, for example, a lot of 
tribes in California, a Public Law 280 State, a lot of 
California tribes feel very passionately about this issue.
    Indian Country is totally with you about saying we need to 
have a seamless operation, and we totally want to address sex 
offender registry because our people, our women, our children 
have such high percentages of being affected by this. But what 
we want to make sure is that, you know, the States now can 
decide whether or not how a State is going to provide that 
oversight and monitoring within the tribal community. We think 
the tribal communities should be able to have some say in how 
that works.
    For example in Alaska, 226 tribes out there, villages that 
are out there, even their own State legislature, a 
representative said the State doesn't have the resources to be 
able to monitor those remote villages. Well, the tribes are in 
those remote villages and they want to be able to monitor, but 
the exclusion of the tribes from being included in the Adam 
Walsh Act also excludes them from being able to get resources 
necessary to help implement and to provide the seamlessness of 
the registry system.
    That goes the same thing with the Bureau of Indian Affairs. 
By not including the Bureau of Indian Affairs in here at all, 
you have a whole, you have detention centers, you have law 
enforcement agencies, you have prisons that are operated by the 
Bureau of Indian Affairs who don't have to comply. So you have 
a gap in compliance that just simply needs to be addressed.
    You have, as I said before, the Attorney General's 
authority to strip tribal governments. It is very disconcerting 
to me that, one, Congress would want to give their oversight, 
their plenary power over tribal communities to the Attorney 
General to decide whether or not they are in compliance, and 
then could actually strip them of their civil and criminal 
jurisdiction and transfer that jurisdiction over to the State 
without Congress actually setting up standards of how that 
would happen.
    But mostly, I am more concerned about the tribes, tribes 
who don't know what the rules are of the game at this point. 
There is no requirement in the Act for them to develop, in 
consultation with tribes, a due process or technical assistance 
to be able to help a tribe come into compliance, so it simply 
sets a precedent that is just really disconcerting to NCAI.
    And then of course, just like when we experienced with the 
welfare reform programs, tribes aggressively wanted to be 
supportive. Tribes and States worked together, and NCAI was 
very involved in that. But the States had a leg up because they 
had been having systems in place for decades before. This is 
the same thing. The States have had systems and resources to 
develop those systems for at least a decade, and tribes are not 
there. We want to get there. We want to participate. We care 
about this in our communities, but we don't have the 
infrastructure.
    With the resources that could be directed to it to help us 
develop the infrastructure, I have had more meetings with 
tribes. I cannot believe it. The fact that we have this many 
tribes who had to affirmatively opt in is a statement from 
Indian Country because that is really hard to do. But to get 
all of them, almost all of them--but a very small percentage of 
them--to opt in says they care about this issue and we want to 
do something to address it, but we need the resources and we 
need the collaboration.
    The challenge for us is this fighting that is happening--I 
am not saying fighting--but the confusion that is happening 
between the Violence Against Women Office and the SMART office 
on implementation of Adam Walsh is causing confusion for Indian 
Country. We need to be able to sit down and say, okay, how is 
this going to work? How are we going to have a seamless 
operation between those two systems? Because Indian Country 
can't afford to have two separate systems. We need to have one 
system that recognizes the responsibility of both of those 
issues, and then we can move forward in implementing our system 
that will coexist with theirs.
    We as governments should have the same right as other 
governments to have access to the data systems of the FBI. We 
shouldn't have to go through a bunch of hoops with another 
government that determines how we qualify.
    Those are just a few of the issues.
    The Chairman. Well, that is enough.
    Ms. Johnson. Okay. Thanks.
    [Laughter.]
    The Chairman. You have raised I think some important 
points. I would say that the legislation we will be introducing 
also addresses a portion of this with respect to the NCIC and 
the availability of that important data.
    You make a point that I think is important for the 
government to recognize, and that is over a period of some 
years we have developed certain registries, including sex 
offender registries. In fact, some tribes had done so prior to 
the enactment of the Adam Walsh Act as well, not very many, but 
some had done so.
    But I think you make an important point that you don't just 
ramp up a registry and have the base of knowledge and the 
experience for doing that in a short period of time, because 
the States haven't done it in a short period of time. So I 
think that is important for us to understand and recognize.
    I do think what we want at the end of this is a product 
which is contributed to by all of the jurisdictions in this 
Country so we have an adequate database, a good effective 
database, that is a registry including all of the names of 
those that we should be aware of who are violent sexual 
predators, so that we can keep track of them and understand who 
they are and where they are.
    It doesn't pay for us to create a system that has a 
patchwork of holes. I mean, that is not workable and doesn't 
protect the American people.
    Well, again I indicated to you we are going to be 
introducing I expect either next Monday or Tuesday the major 
law enforcement bill. John and Allison on our staff, and many 
others, Heidi, have done a lot of work on this legislation. We 
have traveled across the Country. We have consulted with 
tribes. We have consulted with other levels of government from 
county sheriffs to attorneys general of the States, to the 
Justice Department.
    We have done the due diligence you should do to try to 
figure out what is happening, how do people feel about it, what 
are the best of the ideas that are available, and try to 
incorporate that into the bill.
    We have also now been able to get bipartisan support for 
that legislation which we will introduce. I won't describe the 
names today, but we will do that when we introduce it on the 
floor of the Senate. I think that will move us forward, and I 
think also should provide at least some assistance in some of 
the areas Ms. Johnson you described with respect to the 
deficiencies that exist in tribes trying to comply with the 
Adam Walsh Act. So stay tuned for that.
    I want to thank all of you for coming today to be willing 
to testify and provide some additional information.
    Mr. Moore?
    Mr. Moore. Just one last comment. Not enough can be said 
about the work of victims' support groups throughout the United 
States in Indian Country, and the coalitions of these groups 
who have done a significant amount of work to help tribes and 
tribal leaders understand the import of establishing their own 
laws for the implementation of Adam Walsh, like the White 
Buffalo Calf Society and others throughout the Country, who 
have just done an enormous amount of work to help us be able to 
do our work to protect our children and our whole community.
    I needed to say that because I serve on the VAWA task force 
at NCAI, so I know the incredible passion that they have to 
ensure that Adam Walsh is a successful piece of legislation 
that is effective in Indian Country as it is throughout the 
United States. Not enough can be said about the great work and 
diligence that they have done for us.
    The Chairman. I think that is important to say, and I 
appreciate your making that point. There is one other point 
that I think is important, and that is as we deal with this 
issue of sexual predators and violence against women, and sex 
offenses, it is very important for us to have trained 
healthcare officials, nurses, doctors and others. It is 
important even for the remote sites to have rape kits and 
others things available for those who are trying to treat 
victims.
    We have had testimony before this Committee about just the 
fundamental things that have been missing that do need to be 
restored and the training needs to be developed. It is why I 
and Senator Murkowski and others added the $250 million to the 
authorization bill that passed yesterday--$250 million to the 
Indian Health Service. We got a substantial amount of money to 
law enforcement, thanks to two of our colleagues, Senator Kyl 
and Senator Thune. We have all worked together. I have done 
hearings in Arizona. Senator Thune and I have worked together 
on the Standing Rock issue.
    So we have worked on a lot of these issues, but especially 
the issue of Indian health care, which I think is in full 
crisis, adding $250 million, one-half of which would be 
destined to improved facilities, and the other half of which 
would be destined to try to address the contract health issue 
dilemma that we have.
    It is important as we continue to try to add money and make 
the Indian Health Service work more effectively. I think it 
does not work very well, frankly, to just do the basics out 
there in the Country on the reservations, with the ability to 
have trained people to help victims as they come in and are 
being treated.
    Again, I want to thank all of the witnesses for traveling 
to Washington, D.C., except for Ms. Johnson who just comes 
across the street. Thank you for traveling and participating 
today and giving us your information. We will use this as we 
proceed to try to address what we might be able to do to 
respond to your concerns.
    This hearing is adjourned.
    [Whereupon, at 11:09 a.m., the Committee was adjourned.]


                            A P P E N D I X

 Prepared Statement of Hon. Myra Pearson, Chairwoman, Spirit Lake Tribe
    My name is Myra Pearson, Chairwoman for the Spirit Lake Tribe 
located in the state of North Dakota. I have been following the Adam 
Walsh Act for several months. I have concerns regarding both the 
procedure and the substantive provisions of the law and the regulations 
that implement that law.
    As a tribal leader, a grandmother and a mother the safety and well-
being of our children and our members are at the forefront of the 
issues that I consider to be imperative to the future of our tribe. I 
believe that our children are sacred and we must do everything we can 
to protect them and to ensure their future. It is for this very reason 
that I am troubled by the Adam Walsh Act.
    I believe that the underlying principle and purpose of the Act, the 
protection of community members, creates common ground between local, 
state, federal and tribal leaders, however the road to that goal of 
safeguarding our members is where we clearly differ. I find it 
extremely condescending and presumptive of the federal government to 
pass legislation that not only attacks our sovereignty but that also 
presumes to provide a road map that will tell us how to best safeguard 
our own members. At Spirit Lake we were looking at resolutions to this 
issue far before the passage of the Adam Walsh Act, but we were doing 
it in our own way and in our own time. Now we are being forced to do it 
in a federal way and on federal time.
    Despite my objections to the procedure in which this law was passed 
I also have several substantive concerns about the language of the Act 
and the regulations that have been drafted to implement the Act. I plan 
to submit more succinct legal comments on the regulations themselves, 
but initial concerns include:

        The classification process for various sex offenses . . . this 
        process conflicts with existing federal law such as the ICRA 
        which constrains the ability of our tribal court to administer 
        justice . . . how will such conflicts be resolved?

        The provisions dealing with recognition of tribal court 
        convictions. again these provisions conflict with existing 
        federal laws such as the ICRA . . . . If tribes do not provide 
        legal counsel to defendants then the court orders will be no 
        good outside of Indian country . . . I wonder where the funds 
        will come for to pay for court appointed counsel and I wonder 
        if adopting what many believe to be a broken system that has 
        been implemented by states and federal authorities is the best 
        way to administer justice on our reservation. I also ask what 
        exactly is assistance of counsel . . . if we provide lay 
        advocates will that suffice? Who will ultimately determine 
        whether the defendant's rights were adequately preserved . . . 
        is this not a right of the tribal courts to first determine. 
        And finally what about the victim's . . . this law is 
        purportedly in place to protect victims and to prevent future 
        victimization by sex offenders, however if tribal court orders 
        are exempted from the recognition process because we do not 
        have the financial ability to substantially comply with federal 
        laws then I wonder whether we are truly delivering justice to 
        those children, individuals and families who have already been 
        victimized.

    In closing it is one thing for tribes to ``opt in'' by passing a 
resolution, and we can get our attorney's to draft a code that 
substantially complies with the federal mandate, but I question whether 
we have the necessary financial capabilities, infrastructure and 
support to enforce these resolutions and federal laws and whether three 
years is enough time to get to where we need to be. Will the 
implementation of this law truly protect our children and our members 
or will this be another law that is shelved and basically deemed 
unenforceable? Are these laws going to be great in theory but not 
rooted in reality.
    Finally, while we are trying to jump through federal hoops, and 
filing for extensions and scrambling to maintain the sovereignty we 
have left where are the members and victims? We need to take action now 
and in our own way and in our own time to protect our own members. We 
learn from experience and that prompts action but when it comes to sex 
offenders we know the problems and we know what needs to be done.
    We would request also that we continue to be involved in the 
consultation process concerning the language and implementation of 
these regulations.
                                 ______
                                 
           Prepared Statement of the Spirit Lake Sioux Tribe

    The Spirit Lake Tribe strongly opposes the procedure followed by 
the United States Congress in the passage of the Adam Walsh Child 
Safety and Protection Act, particularly the Tribe opposes the lack of 
meaningful consultation prior to the passage of the Act and views this 
process as a violation of tribal sovereignty and further the Tribe 
strongly objects to the ``use it or lose it'' provisions of the Act in 
so far as they mandate Tribes to opt in or risk losing jurisdiction 
with respect to the registration and monitoring of sex offenders.
    With that this comment shall not continue to focus on the obvious 
failings of the legislation itself nor on the process by which the 
legislation was passed but rather shall focus on the regulations that 
are being proposed to interpret and implement SORNA.
    In particular the Tribe finds cause for objection and opposition to 
the following:

  <bullet> The provisions dealing with retroactive application of the 
        law is somewhat of a concern especially when addressing 
        juvenile delinquencies. The procedure of registration and 
        notification was not contemplated by the Court at the time of 
        the conviction and the fact that our juvenile court focuses on 
        rehabilitation runs contrary to the retroactive application of 
        this law as it leaves no discretion for the court to determine 
        whether registration provisions are necessary; and

  <bullet> The regulations address the development of and access to 
        software but do not address technological capabilities 
        associated with the use and maintenance of that software. In 
        other words what type of servers will be necessary to utilize 
        the software and where will such funds come from?; and

  <bullet> The provisions that address ``substantial compliance'' are 
        too vague. There should be some factors listed to establish 
        criteria that can be applied to determine whether a tribe is in 
        substantial compliance. This is necessary to avoid entirely 
        subjective review of programs. Also there should be provisions 
        that address with some specificity the options available to 
        tribe's should they be found to be in noncompliance. Also there 
        remains some question as to how will substantial compliance be 
        determined. Will the SMART office simply review tribal 
        legislation or will the process involve site visits, proof of 
        technological capabilities etc.

  <bullet> The Tribe strongly objects to the delegation of jurisdiction 
        provisions of both the Act itself and the regulations. Despite 
        the fact that Spirit Lake Tribe has opted by resolution to 
        develop and administer its own sex offender registration and 
        notification program, such a decision should not have to be 
        made in order to retain our jurisdiction or risk losing it to 
        the state. We would like to see the Act itself amended 
        accordingly and would consequently request that such language 
        also be removed from the regulations.

  <bullet> The regulations contain various provisions that seems to 
        directly conflict with existing federal law such as the Indian 
        Civil Rights Act. In particular the provisions found at section 
        VI(A) pertaining to full faith and credit of tribal court 
        convictions is highly objectionable because it allows 
        jurisdiction to require that tribal convictions were obtained 
        only where a defendant was afforded assistance of counsel. The 
        Indian Civil Rights Act only requires that individuals be 
        informed of their right to counsel, not that the tribe provide 
        counsel to indigent defendants. The regulations should be 
        amended to clarify this apparent conflict. Additionally some 
        reference should be made to the use of lay advocates. Often 
        defendant's are represented by lay advocates rather than 
        licensed attorneys. These lay advocates know and understand the 
        tribal court and tribal law, however there is no indication 
        that convictions obtained where defendant's were represented by 
        lay advocates would be subject to registration requirements in 
        other jurisdictions.

  <bullet> The Tribe objects to the application of the Tier 
        classification system due to the fact that tribal convictions 
        and sentences are limited by existing federal law and not by 
        the views, policies or laws of the tribes. In other words the 
        tribes have been restricted by federal law to sentences of 1 
        year or less and now sex offenses are being classified in terms 
        of severity based upon those sentencing restrictions. In tribal 
        court someone who would be subject to a 15 year sentence for 
        aggravated sexual assault would only face 1 year in tribal 
        court for the same offense and the same facts. Consequently the 
        use of sentencing as a classification tool is not effective and 
        should be modified.

  <bullet> In terms of the required registration information the Tribe 
        objects to the requirements that tribal or traditional names be 
        registered. It is unlikely that this process would assist in 
        the tracking and monitoring of sex offenders and it is likely 
        that the use of this information would negatively impact 
        individuals who have the same tribal or traditional name as a 
        convicted sex offender. The Tribe would therefore ask that this 
        provision or requirement be removed from the regulations 
        entirely.

  <bullet> Finally from a practical standpoint the Tribe is concerned 
        that neither the Act nor the regulations address implementation 
        issues in terms of program development and program support for 
        tribes that are opting to develop and administer their own 
        programs.

                                  <all>

</pre></body></html>
